     Department of Homeland Security

     ��������������������������



 United States Coast Guard’s Management Letter for 

      FY 2013 DHS Financial Statements Audit





OIG-14-69                                  April 2014
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 21 2014

MEMORANDUM FOR:              Rear Admiral Stephen P. Metruck
                             Assistant Commandant for Resources
                             Chief Financial Officer
                             United States Coast Guard

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     United States Coast Guard’s Management Letter for
                             FY 2013 DHS Financial Statements Audit

Attached for your information is our final report, United States Coast Guard’s
Management Letter for FY 2013 DHS Financial Statements Audit. This report contains
three comments and five recommendations related to internal control deficiencies that
were not required to be reported in the Independent Auditors’ Report on DHS’ FY 2013
Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies which are considered significant deficiencies were reported, as required, in
the Independent Auditors’ Report, dated December 11, 2013, which was included in the
Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency Financial Report.
We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, U.S. Coast Guard
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The U.S. Coast Guard (USCG or Coast Guard) is a component of DHS. During our audit, we noted
certain matters involving internal control and other operational matters, related to Coast Guard, that are
presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or
result in other operating efficiencies. These matters are summarized in the Table of Financial
Management Comments on the following pages. The disposition of each internal control deficiency
identified during our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein
– is presented in Appendix A. Our findings related to information technology systems have been
presented in a separate letter to the DHS Office of Inspector General, the Coast Guard Chief
Information Officer, and Chief Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of Coast Guard’s organization gained during our work to make comments and suggestions that we
hope will be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                           U.S. Coast Guard
                              Table of Financial Management Comments

                                          September 30, 2013





TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)



Comment
Reference   Subject
                                                                                     Page
FMC 13-01   Civilian Payroll and Human Resources                                      2
FMC 13-02   Financial Disclosure Reports                                              2
FMC 13-03   New Hire Ethics Requirements                                              3



                                           APPENDIX


Appendix    Subject                                                                  Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding    4
            and Recommendation (NFRs)




                                                   1

                                          U.S. Coast Guard
                                   Financial Management Comments

                                         September 30, 2013




FMC 13-01 – Civilian Payroll and Human Resources (Notice of Finding and Recommendation
(NFR) No. U.S. Coast Guard (USCG or Coast Guard) 13-05)

       Coast Guard’s time sheet review and approval for civilian payroll was not fully effective
       throughout the year. Specifically, Coast Guard was unable to provide supporting documentation
       for compensation time and overtime requests recorded on timesheets.

       During our testwork over civilian personnel actions at Coast Guard, we noted a lack of formal,
       documented procedures and controls in place throughout the year to ensure the segregation of
       duties for the initiator and approver of requested personnel actions. As a result, the potential
       existed for an individual to both enter and approve a personnel action without it being detected
       and corrected in a timely manner.

       Coast Guard’s controls over administration of the Federal Employees Health Benefits (FEHB)
       Program for civilian employees were not fully effective during fiscal year 2013. During testwork,
       we noted that FEHB payments were not accurate for one of the five samples tested. Specifically,
       no payments were made to FEHB for 24 pay periods for a Coast Guard employee who transferred
       from another Federal agency to Coast Guard.

       Recommendations:
       We recommend that Coast Guard:
       •	 Issue reminders to supervisors regarding the requirement for appropriate review and approval
          of leave, premium pay, and time and attendance. In addition, Coast Guard should require
          annual webTA training for all supervisors. This could include repeating the webTA
          supervisor training module that is required when they first become a supervisor.
       •	 Ensure proper system access is in place to prevent an employee from initiating and approving
          documents. When this is not possible, the Coast Guard should have clear policies and
          procedures in place outlining who is permitted to sign specific documents as well as who is
          responsible for the review of those documents.
       •	 Develop a more robust civilian human resources review process that incorporates a “Payroll
          Processing Checklist” (including Federal benefit/information forms) to ensure the timely
          input and verification of Entry on Duty documents.


FMC 13-02 – Financial Disclosure Reports (NFR No. USCG 13-12)

       Controls over the Confidential Financial Disclosure Forms (CFDR) process were not fully
       effective during FY 2013. Specifically, we noted that of the 25 samples tested:
       •	 One CFDR was completed on March 13, 2013, after the February 15 filing deadline without
           evidence of a filing extension.
       •	 The Office of Government Ethics (OGE) form OGE-450 was not properly reviewed and
           approved for one employee who filed an OGE-450 in 2012 and the OGE Optional 450-A in
           2013.




                                                   2

                                        U.S. Coast Guard
                                 Financial Management Comments

                                       September 30, 2013





      Recommendation:
      We recommend that Coast Guard evaluate and strengthen internal controls related to CFDR and
      Public Financial Disclosure Form (PFDR) filings to ensure compliance with all CFDR and PFDR
      Program rules.

FMC 13-03 – New Hire Ethics Requirements (NFR No. USCG 13-13)

      Coast Guard lacked policies and procedures to track and monitor compliance with initial ethics
      training requirements for new hires.

      Recommendation:
      We recommend that Coast Guard develop and implement policies and procedure to ensure that all
      new personnel complete the required ethics training. Additionally, Coast Guard should implement
      procedures to continuously evaluate and strengthen internal controls, policies, and procedures
      related to new hire ethics training to ensure full compliance with applicable regulations.




                                                 3

                                                                                                 Appendix A
                                         U.S. Coast Guard
                    Crosswalk – Financial Management Comments to Active NFRs
                                       September 30, 2013


                                                                                       Disposition1
                                                                                       IAR            FMC
            NFR
Component           Description                                                 MW     SD       NC    No.
            No.
USCG        13-01   Financial Reporting Process                                  A
USCG        13-02   Fund Balance with Treasury                                   A
USCG        13-03   Construction in Process                                     A, C
USCG        13-04   Operating Expense Process                                    A
USCG        13-05   Civilian Payroll and Human Resources                                              13-01
USCG        13-06   Legal Liabilities Reporting                                         F
USCG        13-07   Preparation of Non-GAAP Analysis                             A
USCG        13-08   Financial Reporting Process                                  A
USCG        13-09   Preparation of GAO Financial Audit Manual 2010 Checklist     A
                    Inadequate Controls over the Accounting of St. Elizabeths
USCG        13-10                                                               A, C
                    Lease and Related Leasehold Improvements
USCG        13-11   Accounts Payable Accrual                                            F
USCG        13-12   Financial Disclosure Reports                                                      13-02
USCG        13-13   New Hire Ethics Requirements                                                      13-03
USCG        13-14   Budgetary Process                                           A, D
USCG        13-15   Property, Plant, and Equipment Site Visit Observations      A, C
USCG        13-16   Personal Property and Equipment                             A, C
USCG        13-17   Intragovernmental Transactions and Balances                  A
USCG        13-18   Leases and Leasehold Improvements                           A, C
                    Internal Use Software and Internal Use Software in
USCG        13-19                                                               A, C
                    Development
USCG        13-20   Heritage Assets and Stewardship Property                     C
USCG        13-21   Operating Materials and Supplies                             A
USCG        13-22   Real Property                                               A, C
USCG        13-23   Environmental and Disposal Liabilities                              F
USCG        13-24   Entity Level Controls                                               E
USCG        13-25   Manual Journal Entries and On-Top Adjustments                A
USCG        13-26   Federal Financial Management Improvement Act of 1996         A               J
USCG        13-27   Scripts Process                                              A
                    Compliance with the Federal Managers’ Financial Integrity
USCG        13-28                                                                                I
                    Act




                                                         4

                                                                                                               Appendix A
                                              U.S. Coast Guard
                         Crosswalk – Financial Management Comments to Active NFRs

                                            September 30, 2013


1
  Disposition Legend:
IAR	        Independent Auditors’ Report dated December 11, 2013
FMC	        Financial Management Comment
MW	         Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	         Contributed to a Significant Deficiency at the Department level when combined with the results of all other
           components
NC	         Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
           combined with the results of all other components
NFR	        Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              5

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   United States Coast Guard

   Commandant
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-69
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
